No.
In The

Supreme Court of the United States
Richard Lee Abrams
Petitioner
vs
Gavin Newsom, in his official capacity as Governor of
the State of California
Respondent

On Petition for a Writ of Certiorari
To the Ninth Circuit Court of Appeals

APPENDIX FOR PETITION FOR
WRIT OF CERTIORARI
Richard Lee Abrams
In Pro Per
1916 North Saint Andrews Place
Hollywood, California 90068-3602
323/957-9588
AbramsRL@MaiL.com

TABLE OF CONTENTS FOR APPENDIX
TO PETITION FOR WRIT OF CERTIORARI
RLA 000001-RLA 000031

Appendix 1

Appeals Court’s April 21, 2020 Memorandum
Affirming district Court’s dismissal with prejudice ... 001

Appendix 2

District Court’s February 20, 2019 Civil Minute
Order Granting Defendant’s Motion to Dismiss .

003

Plaintiffs December 9, 2018 First Amended
Complaint.................... ...............................

011

Appendix 3

Appendix 4

California Supreme Court, August 12, 2015, B277630..029

Appendix 5

California State Bar June 25, 2020 Order

030

o,

Case; 19-55297, 04/21/2020, ID: 11666653, DktEntry: 23-1, Page 1 of 2

NOT TOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
APR 21 2020
MOLLY C, DWYER, CLERK

FOR THE NINTH CIRCUIT
RICHARD LEE ABRAMS I,
Plaintiff-Appellant

No.

U.S. COURT OF APPEALS

19-55297

D.C. No. 2:18-cv-0668'7-PSG-K$

v.

MEMORANDUM*
GAVIN NEWSOM, in his official capacity
as Governor or the State of California,
Defendant-Appellee.
Appeal from the United States District Court
for the Central District of California
Philip S. Gutierrez, District Judge, Presiding

Submitted April 7.2020**
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Attorney Richard Lee Abrams I appeals pro se from the district court’s
judgment dismissing his 42 U.S.C. § 1983 action alleging constitutional claims.
, We have jurisdiction under 28 U.S.C. § 1291. We review de novo a dismissal on
the basis of Eleventh Amendment immunity. Micomonaco v. Washington, 45 F.3d
*
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

RLA 000001

i '

Case: 19-55297, 04/21/2020, ID: 11666653, DktEntry: 23-1, Page 2 of 2

316, 319 (9th Cir. 1995). We affirm.
The district court properly dismissed Abrams’s action as barred by Eleventh
Amendment immunity. See Jackson v. Hayakawa, 682 F,2d 1344,1350 (9th Cir.
1982) (“Eleventh Amendment immunity extends to actions against state officers
sued in their official capacities because such actions are, in essence, actions against
the governmental entity.”); see also Natl AudubonSoc’y, Inc. v. Davis, 307 F.3d
835, 847 (9th Cir. 2002) (prospective declaratory and injunctive relief claims
lacking “requisite enforcement connection” to state officers barred by Eleventh
Amendment).
The district court did not abuse its discretion by dismissing Abrams’s first
amended complaint without leave to amend because amendment would be futile.
See Bonin v. Calderon, 59 F.3d 815, 845 (9th Cir. 1995) (setting forth standard of
review and explaining that district court may deny leave to amend if amendment..
would be futile).
Abrams’ s motion for judicial notice (Docket Entry No. 8) is denied,
AFFIRMED.

2

19-55297

RLA 000002

Case 2:18-cv-06687-PSG-KS Document39 Filed 02/20/19 Page lot8 PagelD#:293
UNITED STATES DISTRICT COURTCENTRAL DISTRICT OF CALIFORNIA

Case No.

CIVIL MINUTES - GENERAL
CV 18-6687 PSG (KSx)

Title

Richard Lee Abrams v, Edmund G. Brown Jr., et al.

Present: The Honorable

#34 (2/25 off)

JS-6
Date February 20,2019

Philip S. Gutierrez, United States District Judge

Wendy Hernandez
Deputy Clerk

Not Reported
Court Reporter

Attorneys Present for Plaintiffs):

Attorneys Present for Defendant(s):

Not Present

Not Present

Proceedings (In Chambers):

The Court GRANTS Defendant’s motion to dismiss

Before the Court is Defendant Governor Gavin Newsom’s1 (“Defendant”) motion to
dismiss Plaintiff Richard Lee Abrams’s (“Plaintiff') first amended complaint. See Dkt. # 34
(“Mot.”). Plaintiff opposes, the motion, see Dkt. # 35 (“OppF), and Defendant replied, see Dkt.
#37 (“Reply”). The Court finds the matter appropriate for decision without oral argument.; See
Fed. R. Civ. P. 78; L.R. 7-15. Having reviewed the moving papers, the Court GRANTS
Defendant’s motion with prejudice.
I.

Background

Plaintiff Richard Lee Abrams, also known as Richard Scott MacNaughton, is an attorney
and a member of the State Bar of California. First Amended Complaint, Dkt. # 33 (ilFAC% f 7.
He brings a single claim under 42 U.S.C. § 1983 against Defendant, alleging that “California has
an official policy that it may use a person’s religious [sic] and/or ethnicity against him.” Id. ^ 1.
His claim arises from the events that ensued in a state court case captioned Fix the City Inc. v.
dity ofLos Angeles. See generally id.
In July 2012, Plaintiff entered into a written attorney-client agreement with an
organization called “SaveHollywood.Org aka People for Liveable Communities”
(“SaveHollywood”). Id. % 11. It appears that, at some point, another attorney, Frank P. Angel,
became associated as counsel for SaveHollywood as well. See id. *f| 13. In September 2014, a
dispute arose as to who represented the organization—Plaintiff or Angel. See id. Initially, a Los
1 This suit was initially against Edmund G. Brown, Jr., in his official capacity as the Governor of
California. Since then, Governor Gavin Newsom, as Brown’s successor, has been automatically
substituted as Defendant in this matter. See Fed. R. Civ. P. 25(d).
CV-90 (10/08)

CIVIL. MINUTES - GENERAL

Page t of8

RLA 000003

- A

,,Case2:18-cy-06687-PSG-KS Document 39 Filed 02/20/19 Page 2 of 8 PageiD#:294
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

CaseNo.

CIVIL MINUTES - GENERAL
CV 18-6687 PSG (KSx)

Title

Richard Lee Abrams v. Edmund G, Brown Jr., et al

Date February 20.2019

Angeles Superior Court judge “confirmed” that Plaintiff represented SaveHollywood. Id, No
one appealed the judge’s order. Id. f 14.
In December 2018, Plaintiff alleges that Angel and the presiding justice of the California
Court of Appeal held a “secret ex pate communication” during which Angel falsely stated that
Plaintiff was not SaveHollywood’s attorney. Id. f 15. Shortly thereafter, the California Court of
Appeal ordered the parties to brief who represented the organization and ultimately held that
Plaintiff was not authorized to represent SaveHollywood. Id. 16,20; see also Fix the City,1
Inc. v. City ofLos Angeles (Fix the City I), No. B263181,2016 WL 1452207 (Cal. Ct. App. Apr.
12,2016),~ Plaintiff was ordered not to file further pleadings for SaveHollywood and sanctions
were imposed on him. FAC f 29; Fix the City 1,2016 WL 1452207, at *8.
* 7 Angel later moved for additional sanctions. Plaintiff alleges that the trial judge initially •
issued a tentative ruling denying the motion. _FAC% 25, But at the hearing, Angel allegedly told
the judge that Plaintiff was a “troublemaker Jew who would ‘refuse Jesus Christ. Id. The
judge and the attorney held a sidebar, excluding Plaintiff, during which Plaintiff allegedly
overheard “a few words discussing the fact that he was really a troublemaker, and a Jew named
Abrams.” Id. After the sidebar, the judge changed his ruling and sanctioned Plaintiff $27,600.
Id. The sanctions order was later affirmed by the California Court of Appeal. Id. f 27; Fix the
City, Inc. v. City ofLos Angeles (Fix the City Ilf No. B263181, 2017 WL 1366045, at *5 (Cal.
Ct. App. Apr. 13,2017).
In March 2018, the State Bar of California issued a Notice of Disciplinary Charges
against Plaintiff. FAC 12; Declaration ofJ. Zelidon-Zepeda, Dkx.it 34-3, Ex. 3 ('-State Bar •
Charges’*). The charges pertain to Plaintiffs conduct in the Fix the City matter, both at the trial
and appellate levels. See generally State Bar Charges. Plaintiff alleges that these charges were
filed “to enforce [the] Discriminatory Policy.” FAC%2.

2 Defendant requests judicial notice of two California Court of Appeal decisions and a notice of
disciplinary charges filed by the State Bar of California. See Defendant’s Request for Judicial
Notice, Dkt. # 34-2. Judicial notice of state court opinions is proper for establishing the fact that
the state court made certain findings, but not for the truth of the underlying facts. See Lee v. City
'ofLos Angeles, 250 F.3d 668,689 (9th Cir. 2001). Likewise, state bar records of disciplinary'
hearings are appropriate for judicial notice. See finite v. Martel, 601 F.3d 882, 885 (9th Cir.
2010) (per curiam). Therefore, the Court GRANTS judicial notice of these documents to
establish the fact of filings but not for the truth of the underlying facts.
CV-90 (10/08)

CIVIL MINUTES - GENERAL

Page 2 of8

RLA 000004

Case 2:18-cv-06687-PSG-KS Document 39 Filed 02/20/19 Page 3 of 8 PagelD #:295
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

';

Case No.

CIVIL MINUTES - GENERAL
CV 18-6687 PSG (KSx)

Title

Richard Lee Abrams v. Edmund G. Brown Jr., et al.

Date February 20.2019

On August 3,2018, Plaintiff filed a complaint against Defendant, the State Bar of
California, Michael G. Colantuono, in his official capacity as Chairman of the Board of Trustees
of the State Bar, and Steven Moawad, in his official capacity as Chief Trial Counsel for the State
Bar (collectively “the State Bar Defendants”). See Dkt. # 1. In addition to the § 1983 claim,
Plaintiff brought causes of action for a request for a stay and a judicial determination that the
California Court of Appeal’s order removing Plaintiff as SaveHollywood’s attorney was void.
See generally id. On September 10,2018, the State Bar proceedings were stayed pending the
outcome of this lawsuit. FAC ^2. Because the stay satisfied Plaintiffs request, he dismissed
the State Bar Defendants from the case, leaving only the Governor as the Defendant in this case.
See Dkts. # 22-24. Plaintiff subsequently amended his complaint. See FAC.
The First Amended Complaint (“FAC”) alleges that the aforementioned judicial rulings in
Fix the City matter were attributable to a state-wide “Discriminatory Policy,” which allows state
judicial officers to “use the attorney’s or litigant[‘s] religion and/or ethnicity against him when
determining whether he/she can participate in a side bar and in the court’s weighing the evidence
which Jews or others who ‘refuse Jesus Christ’ offer during litigation or hearings.” FAC^j 33.
Plaintiff claims that this policy “is not limited to Jews,” but generally permits judicial officers to
invoke article VI, section 10 of the California Constitution “to discriminate against minorities
and religions.” Id. 2 n.l. Once this policy has been applied by judicial officers, Plaintiff alleges
that “other state employees enforce the Discriminatory Policy either actively or by
acquiescence.” Id. f 34.
Plaintiff asks the Court for an injunction against the purported Discriminatory Policy and
to “set aside and nullify other orders, judgments, sanctions, etc[.] for which the void order(s)
served as a basis for on-going actions against [Plaintiff.]” Id. 1.4:18-15; 15:5-8. Plaintiff
further asks the Court to require the State of California to undertake an investigation of the !
Discriminatory Policy and propose ways to eradicate it. Id. 15:5-8. Lastly, PlaintifF asks for
attorneys’ fees and costs under 42 U.S.C. § 1988(b). Id. 15:13-14.
Defendant now moves to dismiss the complaint under Federal Rule of Civil Procedure
12(b)(1) for lack of subject matter jurisdiction and Rule 12(b)(6) for failure to state a claim upon
which relief can be granted. See generally id.

CV-90 (10/08)

CIV/L MINUTES - GENERAL

Page 3 of 8

RLA 000005

Case 2:lS-cv-06687*PSG-KS Document 39 Filed 02/20/19 Page 4 of 8 Page ID #:2$6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.

CIVIL MINUTES - GENERAL
CV 18-6687 PSG (KSx)

Title

Richard Lee Abrams v. Edmund G. Brown Jr., et al.

II.

Date Febraary 20,2019

Legal Standard
A.

Rule 12fbXn

Federal courts have limited jurisdiction and therefore only possess power authorized by
Article III of the United States Constitution and statutes enacted by Congress. See Bender v.
Williamsport Area Sch. Dist, 475 U.S. 534,541 (1986). Thus, federal courts cannot consider
claims for which they lack subject matter jurisdiction. See Wang ex rel. United States v. FMCG*,
Corp., 975 F.2d 1412, 1415 (9th Cir. 1992).
Federal Rule of Civil Procedure 12(b)( 1) provides for a party, by motion, to assert the
defense of “lack of subject-matter jurisdiction.” This defense may be raised at any time, and the
Court is obligated to address the issue sua sponte. See Fed. R. Civ. P. 12(h)(1) (providing for
waiver of certain defenses but excluding lack of subject matter jurisdiction); Grupo Damfluxfg.
Atlas Global Grp., 541 U.S. 567, 571 (2004) (“Challenges to subject-matter jurisdiction can of
course be raised at any time prior to final judgment.”); Moore v. Maricopa Cty. Sheriff's Office,
657 F.3d 890, 894 (9th Cir. 2011) (“The Court is obligated to determine sua sponte whether it
has subject matter jurisdiction.”). The plaintiff bears the burden of establishing that subject
matter jurisdiction exists. See United States v. Orr Water Ditch Co., 600 F.3d 1152,1157 (9th
Cir. 2010). If the Court finds fiat it lacks subject matter jurisdiction at any time, it must dismiss
the action. See Fed. R. Civ. P. 12(h)(3).
A Rule 12(b)(1) jurisdictional attack may be facial or factual. See White v. Lee, 227 p.3d
1214,1242 (9th Cir. 2000). In a facial attack, the challenging party asserts that the allegations
contained in a complaint are insufficient on their face to invoke federal jurisdiction. See Safe Air
for Everyone v. Meyer, 373 F.3d 1035,1039 (9th Cir. 2004). By contrast, in a factual attack, the
challenger disputes the truth of the allegations that, by themselves, would otherwise invoke
federal jurisdiction. See id.
B.

Rule 12(b)(6)

To survive a motion to dismiss under Rule 12(b)(6), a complaint must “contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its. face.’” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 "
(2007)). In assessing the adequacy of the complaint, the court must accept all pleaded facts as . .
true and construe them in the light most favorable to the plaintiff. See Turner v. City & Cty. of
S.F., 788 F.3d 1206, 1210 (9th Cir. 2015); Cousins v. Lockyer, 568 F.3d 1063, 1067 (9th Cir, -.
CV-90 (10/08)

CIVIL MINUTES - GENERAL

' Page 4 of8

RLA 000006

Case 2:18-cv-06687-PSG-KS Document 39 Filed 02/20/19 Page 5 of 8 Page ID #:297
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.

CIVIL MINUTES - GENERAL
CV 18-6687 PSG (KSx)
_________

. -Title

Richard Lee Abrams v. Edmund G. Brown Jr., et al.

Date February 20,2019

. i

2009). The court then determines whether the complaint “allows the court to draw the
reasonable inference that die defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at
678. However, “[tjhreadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id. Accordingly, “for a complaint to survive a motion to
dismiss, the non-conclusory factual content, and reasonable inferences from that content, must
be plausibly suggestive of a claim entitling the plaintiff to relief.” Moss v. U.S. Secret Serv., 512
F.3d 962,969 (9th Cir. 2009) (internal quotation marks omitted).
III.

Discussion

Defendant contends that Plaintiffs complaint should be dismissed on three grounds: (1)
Plaintiffs allegations of a “Discriminatory Policy” are conclusory and insufficient as a matter of
law; (2) Plaintiffs claims are barred by the Rooker-Feldman doctrine to the extent he challenges
state court decisions; and (3) Plaintiffs claims are barred by the Eleventh Amendment. See
generally Mot. Because the Court finds that the latter two arguments are dispositive, it does not
reach the first issue.
A.

The Rooker-Feldman Doctrine

In his FAC, Plaintiff asks the Court to declare that any orders that are based upon the
California Court of Appeal’s, orders are derivative of the purported “Discriminatory Policy.” See
FAC 14:26-27. Therefore, he asks the Court to “set aside and nullify other orders, judgments,'
sanctions etc[.] for which the void order(s) served as a basis for on-going actions against
[Plaintiff]” Id. 15:9-11.
Under the Rooker-Feldman doctrine, lower federal courts lack subject matter jurisdiction
in “cases brought by state-court losers complaining of injuries caused by state-court judgments
rendered before the district court proceedings commenced and inviting district court review and
rejection of those judgments.” Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,
284 (2005). Here, the orders the FAC refers to were appealed through the state judicial system
and therefore are not reviewable by this Court under this doctrine.
Plaintiff concedes that his claims are barred to the extent that they challenge state court
decisions. Opp. 10:8-20. Instead, Plaintiff states, “Where the FAC inadvertently retains some
words that the FAC is asking this district to overrule any of the state court decisions, those words
may be stricken as superfluous.” Id. IOn.5. Therefore, the Court GRANTS Defendant’s
motion to dismiss to the extent that Plaintiffs FAC asks to overturn state court decisions.
CV-90(IO/OS)

CIVIL MINUTES - GENERAL

Page S of S

RLA 000007

Case 2:18-cv-06687-PSG"KS Document 39 Filed 02/20/19 Page 6 of 8 PageID#:298
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No, CV 18-6687 PSG (KSx)

Date February 20, 2019

Richard Lee Abrams v. Edmund G. Brown Jr., et al.

Title
B.

Eleventh Amendment Immunity

To the extent that Plaintiff seeks declaratory or injunctive relief apart from his challenge
to the state court rulings, his claim against Defendant is barred by sovereign immunity. The
Eleventh Amendment provides: “The Judicial power of the United States shall not be construed
to extend to any suit in law or equity, commenced or prosecuted against one of the United States
by Citizens of another State” U.S. Const, amend. XI. The Supreme Court has long held that the
Eleventh Amendment extends to suits by citizens against their own States. Bd. ofTr. ofUniv. of
Ala. v. Garrett, 531 U.S. 356,363 (2001). Therefore, nonconsenting states may not be sued by
private individuals in federal court. See id.
Of course, Eleventh Amendment immunity does not “bar actions for prospective
declaratory or injunctive relief against state officers in their official capacities for their alleged
violations of federal law.” Coal, to Defend Affirmative Action v. Brown, 674 F.3d 1128,1133
(9th Cir. 2012) (citing Ex parte Youngi 209 U.S. 123, 155-56 (1908)). In order for this
exception to apply, the officer “must have some connection with the enforcement of the act, or
else it is merely making him a party as a representative of the state, and thereby attempting to
make the state a party.” Ex parte Young, 209 U.S. at 157. Moreover, that connection “must be
fairly direct a generalized duty to enforce state law or general supervisory power over the
persons responsible for enforcing the challenged provision will not subject an official to suit.”
LA. Cty. Bar Ass ’n v. Eu, 979 F.2d 697, 704 (9th Cir. 1992),
Here, Plaintiff brings this suit against the Governor in his official capaci ty “for an order
that Defendant California and all its subdivisions and agencies and departments cease and desist
and repudiate the Discriminatory Policy.” FAC *18. However, his FAC lacks any factual
allegations from which the court could plausibly conclude that Defendant has a “fairly direct”
connection with the actions Plaintiff complains of. For example, Plaintiff does not allege thr?t
then-Govemor Brown played any role in creating or enforcing the purported Discriminatory '
Policy. Although Plaintiff claims in his opposition that “the Governor has other means such as .
directing agencies not to rely on such cases and that agencies and personnel should not interpret.
Art VI Sec 10 [of the California Constitution] in the way that [the judicial officers] have done,”
Opp. 10:17-20, this is no different from Defendant's general duty to enforce the law, which is
not a sufficient ground for stripping his immunity. Therefore, without any “fairly direct”
connection between Defendant and the enforcement of the purported unconstitutional
Discriminatory Policy, the Court finds that Defendant is named as a surrogate for the State of
California, and Plaintiffs claim is therefore barred by the state’s Eleventh Amendment
immunity.
CV-90 (10/08)

CIVIL MINUTES - GENERAL

Page 6 of S

RLA 000008

. Case 2:18-cv-06687-PSG-KS Document 39 Filed 02/20/19 Page 7 of 8 Page!D#:299
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.
. Title

CI VIL MINUTES - GENERAL
CV 18-6687 PSG(KSx)_________ ________

Date February 20,2019

Richard Lee Abrams v. Edmund G. Brown Jr., et al.

Plaintiffs opposition brief emphasizes that state immunity does not excuse violations of
constitutional rights. Yet, no one is disputing that this is the case. It is a lack of connection
between the official sued and the enforcement of an unconstitutional policy that is the problem.
Plaintiff claims that a governor is a proper defendant where “the state [] was engaged in the “ .
discriminatory policy,” citing Papasan v. Attain, 478 U.S. 265 (1986). Opp. 12:17—18.
However, Papasan did not address a governor’s connection to the enforcement of the challenged
law or lack thereof. Instead, the Court rejected the defendant’s contention that the plaintiffs had
failed to sue any state officials who could grant the relief requested, because the Secretary of •
State was a named defendant. Papasan, 478 U.S. at 282 n.14. The Court held that the suit was
proper under Ex parte Young to the extent that the Secretary of State was acting in a manner that
violated the constitution, because the Secretary of State was responsible for supervision of the
administration of funding provisions, which were the subject of the suit. Id. Therefore, the
plaintiffs in Papasan were able to demonstrate a “fairly direct” connection between the
defendant and the unconstitutional practice.
In sum, the Court concludes that Plaintiffs claim is barred by Eleventh Amendment
immunity because the FAC fails to show that Defendant has a connection with the enforcement
of the purported Discriminatory Policy.
IV.

Leave to Amend

Whether to grant leave to amend rests in the sound discretion of the trial court. See Bonin
v. Calderon, 59 F,3d 815, 845 (9th Cir. 1995). Courts consider whether leave to amend would
cause undue delay or prejudice to the opposing party, and whether granting leave to amend
would be futile. See Sisseton-Wahpeton Sioux Tribe v. United States, 90 F.3d 351,355 (9th Cir.
*1996). Generally, dismissal without leave to amend is improper “unless it is clear that the
complaint could not be saved by any amendment,” Jackson v. Carey, 353 F.3d 750, 758 (9th
Cir. 2003).
Here, the Court finds that Plaintiffs claims against Defendant are barred by the RookerFeldman doctrine and the Eleventh Amendment. Given that the only connection between
Defendant and the actions Plaintiff complains of is Defendant’s general duty to enforce and
uphold the law, the Court does not believe that Plaintiff would be able to add any allegations to
the FAC that would surmount Defendant’s sovereign immunity. Because the Court finds that
amendment would be futile, it DENIES leave to amend.

CV-90 (10/08)

CIVIL MINUTES - GENERAL

Page 7 of 8

RLA 00000©

*
<•

*h>

Case 2:18-cv-06687-PSG-KS Document 39 Filed 02/20/19 Page 8 of 8 Page ID #:300

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No.

CIVIL MINUTES - GENERAL
CV 18-6687 PSG (KSx)

Title

Richard Lee Abrams v. Edmund G. Brown Jr., et al.

V.

Date February 20, 2019

Conclusion

'
For the foregoing reasons, the Court GRANTS Defendant’s motion to dismiss withHi.prejudice. This order closes the case.
<•>

*

IT IS SO ORDERED.

\

it

h

A

CV-90 (10/0S)

crvn. minutes - General

Page 8 of8

RLA 000010

♦

V
1

Richard Lee Abrams, Esq. SEN 077258
Attorney at Law
2 1916 North Saint Andrews Place
Hollywood. California 90068-3602
3 323/957-9588 Tel * 323/464-7066 Fax
AbfamsRL@MAIL.com
4
5

Attorney in Pro Per: Plaintiff Richard Lee Abrams

6
7

UNITED STATES DISTRICT COURT
FOR CENTRAL DISTRICT OF STATE OF CALIFORNIA

8

9
10
II

RICHARD LEE ABRAM'S,

12
d-3®

I gf
a? I
5<1

31$
** 8

III
s

13

Plaintiff,

14
15

'
vs.

)
)
)
)
)
)
)
)

16 EDMUND G BROWN JR. in his official)
17 capacity as Governor of the STATE OF )
CALIFORNIA,
)
18
)
Defendant.
)
19

Case # 2:18-cv-06687(PSG)(KSx)
FIRST AMENDED COMPLAINT
FOR CIVIL RIGHTS VIOLATIONS
UNDER42 U.S.C. § 1983, and
INJUNCTIVE RELIEF, ATTORNEY
FEES & COSTS
COUNT I

1983 Civil Rights Violations

.)
20

21
22
23
24

25
26
27

28

SYNOPSIS OF THIS ACTION
California has an official policy that it may use a personas religious
1.
and/or ethnicity against him. As the facts revealed the State has a policy Which
may deny Jews and others who “refuse Jesus Christ” access.to hearings; they
may disregard and alter evidence and testimony offer by Jews. Thereafter state
agencies such as the Commission on Judicial Performance, the Sta^vBatAssociation, various district attorneys and other state agencies, crime labora4 •

I” Amc&dcd Complaint for Injunction Page 1 of 15

RLA 000011

1^

i tones will go along with the Discriminatory Policy, whether they act under the
2 color of state law or for personal benefit. This can be termed the Cover-up
3 Phase which is a common institutional response to wrongdoing by people with
power positions within the business, agency, institution or government. [The
4
original wrongdoing plus the cover-up are hereinafter referred to as The Bis5
criminatory Policy]1 This complaint challenges that state policy as contrary to
6
42 USC § 1983. Although policy was thrust upon the state by the conduct of
7
certain state court judges or by private persons seeking special favors .from
8 government personnel, the origin of the policy is not relevant to its dis­
9 criminatory nature,
10
ll
12
13

I

1

3<|

14

15

mSO

38$

16

811

17

III

18

2.
Because the California State Bar had proposed serious sanctions
against Attorney Abrams-MacNaughton, Case # 16-0-13106, to enforce tins
Discriminatory Policy, State Bar Judge Donald Miles’ stayed the State Bar
proceedings to that the state bar respondent, Plaintiff herein, could challenge the
underlying policy. After this case was filed and served. Judge Donald Miles’
noticed a Status Conference on September 10,2108 where he stayed the state
bar proceedings until the conclusion of the federal litigation. As Judge Miles’
stay order satisfied Plaintiff’s request, on October 17,2018 Plaintiff dismissed
the State Bar defendants from this case.

19
20

21

There is a judicial conundrum in that part of the untoward extra3.
judicial behavior of some state court judges which formed this policy was with-1

22
i

23
24

25
26
27
28

Plaintiff is informed and believes that the Discriminatory Policy is not limited
to Jews, but in general application it permits judges and justice to invoke the Calif
Const, art Vi, § 10 to discriminate against minorities and religions as a judicial officer
chooses. The Discriminatory Policy, however, came to light when Attorney fxjmk
Angel alerted Judge John Torribio that Attorney MacNaughton was actually a lew
named Abrams who' would “refuse Jesus Christ” After learning that MacNaughton
was Jewish, Judge Torribio altered the evidence and then changed his tentative ruling
to be against Abrams-MacNaughton.
l*1 Amended Complaint for Injaactsea Page 2 of 15

RLA 000012

• ■..-'V, 1
?■ *'

• N

• ‘t

i
2
3
•4
3
6
7

outjurisdiction. The legal impact ofthe judicial action’s being withoutjurisdic­
tion is that it places the court’s behavior outside the bounds ofthe court system,
yet it remains “under the color of law.” This federal court is not asked to
overrule the state court cases which follow the Discriminatory Policy, but rather
this court’s attention is directed at the policy itself. Notwithstanding support for
the Discriminatory Policy among some personnel within the State Bar organiza­
tion, Judge Donald Miles’ successive stays were determinative ofthe State Bar’s
official position not to proceed on the basis of the Discriminatory Policy.

S
9
10
11
12
13
US
«§«

ill
<r te

35 a

oSU
2) <3 .

-1 « -D

■Sc §

III

4.
The prior factual allegation in the original complaint are true, but
many are not relevant to the Discriminatory Policy itself. There is an alternate
route to challenge the actual state court decisions, which are void for laclrof
jurisdiction and lack of due process, but that alternate action would have to be
present to the United States Supreme Court.

14

JURISDICTION and VENUE

■ i

15
16
17

cn

18
19

The federal courts have jurisdiction of this action under 28 U.S.
5.
Code § 1331, (Federal question), 28 U.S. Code § 1343(a)(3), 42 U.S. Code §
1988(b), 42 U.S. Code § 1983, and the 14th Amendment due to the State’s Dis­
criminatory Policy as herein described. Jurisdiction over State of California
Courts extends to claims for prospective injunctive relief.

20
21
22
23
24
25
26
27

6.
Venue is in the Central District Court for the State of California as
all the actions occurred within the City of Los Angeles, State of California.
Plaintiff had a property right in his attorney-client contract with his client SaveHollywood.Org aka People for Livable Communities, an unincorporated association. 28 U.S. Code § 1391 and said contract was entered into in Los Angeles,
California.
III

28
Civil Rights Complaint Injunction

Page 3 of 15

RLA 000013

' **.

1
2
3

9.
Defendants DOES 1 THROUGH 10's identities and/or capacities are
unknown at this time and shall be added as named defendants if and when their
identities and roles are ascertained.

4
5
6
7
8
9

10. In doing each act herein alleged and in not doing each omissions
herein alleged, each defendant was and is acting as the servant, agent and
employee of each remaining defendant. Defendants, and each of them, acted
under color of state law and their conduct deprived the plaintiff of his rights.;
privileges, and immunities secured by the US Constitution and laws of the
United States, and that such deprivation occurred without due process pfjfe

10
H
12
13
a

I

S2Sre

m
1
fM
K2x

14
15
16
17

cn ■

18

FACTUAL SITUATION WHERE THE DISCRIMINATORY FOLICY
WAS APPLIED TO PLAINTIFF
11. On July 18, 2012, Abrams-MacNaughton entered into a written
attorney-client agreement with his client, “SaveHollywood.Org aka People for
Livable Communities,” an unincorporated association [SaveHywdJ. SaveHywd
never terminated that attorney-client contract but on several occasions, Save­
Hywd has affirmed that attorney-client contract. [Hereinafter The Mac Naughton Attorney Client Contract]

19
20
21
22
23
24
25
26
27
28

12. The SaveHywd case, for which Abrams-MacNaughton was retained,
is on-going as it is a CEQA case which is awaiting “returns” by DefendantRespondent City of Los Angeles which is not a party to this dispute, nor aret|be
related cases at the trial court level (i.e. La Mirada and Fix The City) part.ef.tjjp
dispute.
'V
13. On September 18 and 24,2014 in the case of SaveHywd Sc HELP
etc. Los Angeles Superior Court case Number BS 138370, Judge Allan Good­
man confirmed that Abrams-MacNaughton was the attorney for SaveHywd and
that attorney Frank Angel was not. On September 18,2014, after Judge GoodCivil Rights Complaint Injunction

Page 5 of 15

RLA 000015

■b i

1
2
3
4
5
6
7
S
9

man reiterated that Frank Angel was not the attorney for SaveHywd but was the
attorney for a non-party corporation, Frank Angel told Judge Goodman that he
was SaveHywd’s attorney and asked Judge Goodman to make an order to that
effect. In response to Frank Angel’s oral motion, Judge Goodman asked for
briefing and set September 24,2014 for a hearing date to whether to remove
Attorney MacNaughton as SaveHywd’s attorney. On September24,2014, Judge
Goodman chose not to change his determination that Frank Angel was not Save­
Hywd’s attorney but affirmed that Attorney MacNaughton was still SaveHywd’s
attorney. Judge Goodman also advised Frank Angel that the Save-Hywd case
was not the proper forum for his motion.

10
11
12
8

13

Sss
w i <s

14

Ar'

Eg c
2 CO
§<i
<

14. Neither Frank Angel nor anyone else appealed Judge Goodman’s
September 24, 2014 minute order nor did anyone seek any other type of
appellate review.

(6

15

o SO

a to J 0) *5

Pi
“23?
cn

16
17
18
19
20
21
22
23
24
25
26
27
28

15. On December 18,2014 the law office of Frank Angel and Justice
Paul Turner’s Office, Division Five of California Second District Court of
Appeals, had a secret ex parte communication wherein Frank Angel’s office
falsely stated that Abrams-MacNaughton was not SaveHywd’s attorney but
MacNaughton would not cease to act as SaveHywd’s attorney, Le. “I explained
that Mr. MacNaughton refused to accept that he had been terminated by
SaveHollywood.Org and that a motion for sanctions had been filed against him
in the trial court,” Jessica Cheng May 29, 2015 declaration. This .-false
representation was unduly prejudicial to Abrams-MacNaughton and it exceeded
the scope of any permitted ex parte communication for scheduling. When the
prejudicial statement was made during the ex parte communication, the offices
of Frank Angel knew that its representation was the opposite of what Judge
Goodman had determined three months earlier. Neither Justice Turner nor
Frank Angel disclosed this secret ex parte communication until long after the
Supreme Court had denied cert. (The Cheng May 29,2015 declaration came to
light as an attachment to a letter which Frank Angel submitted to the appellate
Civil Rights Complaint Injunction

Paged of 15

RLA 000016

1
2
3
4
5
6
7
8
9
10
11

court on or about September 2015.) Similarly, it was years before Plaintiff
realized that the action was pursuant to the Discriminatory Policy which had not
yet ben disclosed.
16. On December 19,2014, Judge Turner issued an order that the client
SaveHywd without its attorney identify its attorney. The order statedj.Mdispute exists as to who represents plaintiff, SAVEHOLLYWOOD.ORG, %
Within 5 days of the filing date of this order, plaintiff is file declarations
identifying who it wishes to act as its counsel.” Plaintiff is informed, believes
and thereupon alleges that this order was not a proper judicial function but
rather was part of Justice Turner’s personal implementation of the Discrimina­
tory Policy against Abrams-MacNaughton.

12
Ic

ii s
ill

pi

13
14
15

o SO

"8 — §

HI

£ x—
<X> *■»
-r

16
17
18
19
20
21
22
23
24
25
26
27
28-

17. When Ziggy Kruse who was a member of SaveHywd’s Legal Com­
mittee telephoned Division 5 for clarification, Justice Turner’s clerk told her to
look at the order, i.e. it was direct to the client and not to its attorney, and that
Attorney MacNaughton was to file nothing. In brief, Attorney MacNaughton
was expressly excluded from the December 19,2014 order. The clerk advised
Ms. Kruse that the client itself was to file only a couple sentences limited to
identifying its attorney. When Ms. Kruse objected, the court clerk assured her
that if two different attorneys were identified, Justice Turner would seek more
information. Justice Turner’s December 19,2014 order excluded Abrams-Mse
Naughton in that it was directed to his client and he was advised to file nothing".
The order also said nothing about removing any attorney.
18. Because Justice Turner’s December 19,2014 order only pertained
to the client and excluded Abrams-MacNaughton, the court gained no personal
jurisdiction over Abrams-MacNaughton. Abrams-MacNaughton followed the
Justice Turner’s order and filed nothing, but his client acting though Robert
Blue who was a founder of SaveHywd and a member of its Legal Committee,
did-submit a declaration identifying Attorney MacNaughton as SaveHywd’s
Civil Rights Complaint Injunction

Page 7 of 15

RLA 000017

l
2
3
4
5
6
7
8

22. Although SaveHywd tried to appeal the removal of its attorney,
Justice Turner would not accept their papers which SaveHywd itself had filed,
despite the fact Justice Turner’s December 19,2014 order said that SaveHywd
should file by itself without its attorney. When SaveHywd refiled its appeal
with its Attorneys Richard MacNaughton and Attorney Edward Pilot (whose
presence as one ofSaveHywd’s attorneys ofrecord Justice Turner had ignored),
Justice Turner determined the validity of his own putative orders and when
SaveHywd petitioned the Supreme Court, it allowed the Discriminatory Policy
to continue.

9
10
11
12
tfi<o

ill

|< < s<0

© SO
© co -

13
14
15

23. In 2014 and early 2015, SaveHywd attempted to object to Justice
Turner’s order but to no avail, since Justice Turner blocked any objections. As
SaveHywd and HELP had jointly moved to be dismissed as wrongfully joined
in the La Mirada case at the appellate level and Justice Turner had granted
HELP’S request and Justice Turner had not tried to actually apply the December
26,2014 order to the trial court, there was no rational reason for SaveHywd or
Attorney MacNaughton to pursue a practically moot issue.

16

•y

o

HI

Ilf

17
18
19
20
21
22
23
24
25
26
27
28

«•'

24. Defendant State Bar filed charges against Abrams-Mac Naughtoh
due to his claim that he is SaveHywd’s attorney. State Bar Judge Donald Miles,
however, would not enforce the Discriminatory Policy, but due to file State
Bar’s case of Collins he lacked authority to declare the Discriminatory Policy
void. Instead, Judge Miles issued stay orders (abatement) pending the final
outcome of the federal action.
•f*

at

'

*
t

.

25. On February 9,2015 Judge John Torribio issued a tentative ruling,
which ruled in favor of Abrams-MacNaughton and denied Frank Angel’s Code
of Civil Procedure § 128.7 motion for monetary sanctions. The next day on
February 10,2015 during oral argument, Frank Angel told Judge Torribio that
Attorney MacNaughton was a troublemaker Jew who would refuse Jesus
Christ” and then Frank Angel rushed to the bench where he and Judge Torribio
Civil Rights Complaint Injunction

Page 9 of 15

RLA 000019
• «.

L.'

f*.

l had a sidebar which excluded Attorney Mac Naughton over his repeated
2 objections, but Attorney MacNaughton heard a few words discussing the fact
3 that he was really a troublemaker, and a Jew named Abrams. After that sidebar
4 about Attorney MacNaughtonSs being a Jew, Judge Torribio changed his ruling
and granted Frank Angel’s motion and sanctioned Attorney MacNaughton
5
$27,600.00 plus costs.
6
7

8
9
10
11
12

srf s
g Is
l-D e

13
14
15

® .SO

O 10

-

!i|
CD

16

17
18
19
20

21
22
23
24

26. On May 14,2015 without denying any of the facts of his side bar with
Frank Angel over Abrams-MacNaughton’s Jewish heritage, Judge Torribio denied;
Petitioner Hollywoodians Encouraging Logical Planning’s [HELP’S] motion to
disqualify Judge Torribio on the grounds of bias. Abrams-Mae Naughton was also the
attorney for co-petitioner HELP and Judge Torribio was excluding HELP from the
post judgment CEQA notices and hearings. In his Strike Order to HELP’S Motion to
Disqualify, Judge Torribio did not dispute any of the facts nor did he make any
statement that an attorney’s Jewish heritage should not be inserted into a judicial
proceeding,4 but rather he asserted that he had a state constitutional right, Art VI, Sec
10, stating "The court may make any comment on the evidence and the testimony and
credibility of any witness as in its opinion is necessary for the proper determination
ofthe cause.'' “Comment on evidence” was an oblique reference to Frank Angel’s and
Judge Torribio’s side bar conference that Attorney MacNaughton was a troublemaker
Jew who would refuse Jesus Christ. In line with his assertion of a state constitutional
right extending to “evidence, testimony, and credence of any witness,” Judge
Torribio’s March 9, 2015 decision had also altered the evidence which AbramsMacNaughton had offered in opposition to Frank Angel’s CCP, §128.7 Motion. For
example, in the Frank Angel C.C.P. § 128.7 Motion before Judge Torribio, AbramrsMacNaughton produced The MacNaughton Attorney Client Contract whereby
SaveHywd had retained him and not Frank Angel, but Judge Torribio said that' it wss

25
26

4

Judge Torribio May 14, 2015 verification contained this statement which
ignored the actual exchange in which he participated, “i am not prejudiced or biased
* '»
28 against or in favor of any party to this proceeding or their counsel.”
27

Civil Rights Complaint Injunction

Page ID of 15

RLA 000020

1 an Undisputed Fact that The MacNaughton Attorney Client Contract had hired Frank
2 Angel. Judge Torribio also said it was an undisputed fact that Ziggy Kruse, a member
3 of SaveHywd, had stated that Frank Angel was SaveHywd’s CEQA attorney which
was false; she had stated the opposite. Judge Torribio also concealed the August 25,
4
2012 Frank Angel contract which showed that MacNaughton was the lead attorney
5
and that Frank Angel was not authorised to participate in any appellate proceedings.
6
Plaintiff is informed, believes and thereupon alleges that the aforesaid mischaracter7
ization of evidence fall under the rubric of Judge Torribio’s May 14,2015 assertion
S of astate constitutional right: "The court may make any comment on the evidence and
9 the testimony and credibility of any witness as in its opinion is necessary for toe
10 proper determination of the cause."
11
12
•§<5

,sr £§
“ sS
ilf
s?i
§<S£

<—«

aSO
s a .

Ui

p|
0>

13
14
15
16
17

When Abrams-MacNaughton appealed Judge Torribio’s Strike Order in
the HELP case, on June 26, 2015 in appellate case #B 264397 Justice Turner
sustained Judge Torribio’s Order Striking the Disqualification, which Judge Torribio
signed but did not author, based on trial court judges’ state constitutional right
including the use ofreligious criteria to governing their courtrooms. Judge Torribio’s
March 9, 2015 order had also been based on Justice Turner’s prior December 26,
2014 void order removing Abrams-Mac Naugh-ton as SaveHywd’s attorney.
27.

18
19
20

21
22
23
24

25

When SaveHywd appealed Judge Torribio’s March 9, 2015 decision,
Justice Turner refused to allow Division 5 to hear the appeal on the grounds that
Abrams-MacNaughton had been removed as SaveHywd’s attorney (i.e. on toe basis
of the void December 26,2014 order). When Justice Turner learned that SaveHywd
had a co-counsel, Edward Pilot who is also Jewish, and he had actually been the
signatory to the appeal, Justice Turner became irate and threatened Attorney Pilot
with state bar disciplinary actions and heavy financial sanctions. Attorney Pilot
withdrew as SaveHywd’s attorney in face of the threats.
28.

26
29. Thereafter, on April 12, 2016, Justice Turner issued a $9,000.00, jn
28 sanctions against Abrams-MacNaughton on toe ground that he had to know that the

27

Civil Rights Complaint Injunction

Page 11 of 15

RLA 000021

7!- S-

December 26,20! 4 order prevented him from acting as SaveHywd’s attorney at the
2 trial court level. Although Justice Turner styled his April 12,2016 as based on a valid
3 order, he knew the basis was the Discriminatory Policy which he, Judge Torribio and
some other members of the judiciary and other state agencies impose on groups
4
against whom they are prejudiced. The sanctions against Abrams-MacNaughtor
5
were, which the State Bar seeks to enforce, were a product of the Discriminatory
6
Policy. The sanctions award was expressly made in favor of SaveHywd, and
7
SaveHywd waived the sanctions and again SaveHywd fired Frank Angel, and
8 SaveHywd affirmed that Abrams-Mac Naughton was its attorney. Nonetheless, the
9 personal prejudices of Paul Turner, John Torribio, and others within the structure of
10 Defendant California persisted in the enforcement of their Discriminatory Policy.
1

11

19

30. After December 26,2014, SaveHywd and Abrams-MacNaughton made
repeated requests that JusticeTumer recuse himselffrom hearing any subsequent case
wherein he wanted to use die December 26, 2014 order due to Justice Turner’s
personal involvement that the order had been void for lack ofjurisdiction and hence
outside the bounds of his judicial immunity. Under the general principles set forth
in 28 USC § 455, Justice Turner had a serious conflict of interest of both appearance
of impropriety and actual personal stake in outcome. Unlike a case where the trial
court makes an order, Justice Turner acted like a court of original jurisdiction,
decided an issue where he had no jurisdiction and then he presided over the appeal

20

of his void order.

12
8

13

hi
P!

14

crJS

©

o ,EO
a to J W *5
T2
o

5o
1
oH=

15
16
17
18

21

31. In assessing the Discriminatory Policy, the trier-of-fact may-assess
whether some or all the judicial actions were void as they were not a product of the
23
California judicial process but they were due to the Discriminatory Policy which the
24
State of California thereafter adopted and enforced against Plaintiff. Plaintiff is
25 informed, believes and thereupon alleges that it is legally irrelevant whether the State
26 of California adopted and. enforced the policies innocently without knowing’their
27 discriminatory basis or whether other state officials knew what they were doing. The
28 result was the State ofCalifornia engaging in discriminatory behavior which deprived

22

Civil Rights Complaint Injunction

Page 12 of 15

RLA 000022

b

1 Plaintiff of his rights under 42 USC 1983

a

2

INJUNCTION - REQUEST FOR A STAY

3
4

32. While some employees of the California State Bar attempted to enforce
the Discriminatory Policy, State Bar Judge Donald Miles has stayed the State Bar
6
proceeding pending the final outcome of this federal case. The prior request for a
7
temporary stay in the original complaint was thus mooted and the State Bar was
8 dismissed without prejudice.
9
5

10

11
12
s
il
UJ

13
03

.5

I

ago

a<o

14

15
16

I <D x

17

£

18
19
20

21
22

33. Abrams-MacNaughton cannot be adequately compensated in damages
for the harm to his mental and physical health and the financial drain which has
forced into poverty in attempting to overcome the great medical, mental and financial
burdens unless this court enjoins Discriminatoiy Policy. Nor, should Plaintiff or any
other person to subjected to a judicial system or other branch of the State cf
California which provides that judges or those administrative roles may use the
attorney’s or litigants religion and/or ethnicity against him when determining whether
he/she can participate in a side bar and in the court’s weighing the evidence which
Jews or others who “refuse Jesus Christ” offer during litigation or hearings. Plaintiff
also seeks an injunction against the use and or enforcement of the Discriminatory
Policy by any agency, department, subdivision, etc. of the State of California.
Furthermore, Plaintiff requests that the Defendant California undertake an inves­
tigation of the Discriminatory Policy and that based upon the facts uncovered during
the investigation that Defendant California devise ways to root out the Discriminatory
Policy from its agencies and subsections in order to re-establish the rule of law.

23
24

Hi

25

26

sftii .

///

27
28

///

Civil Rights Complaint Injunction

Page 13 of 15

”,

RLA 000023

■■■r

4.

=;
1
2

That Abrams-MacNaughton has been deprived him of his civil rights
under 42 USC 1983.
3.

3
4

5
6
7

4.

For a Jury Trial

5.
That Defendant California undertake a investigation of the Discrimina­
tory Policy and charge the fact finder to also ascertain proposed ways to root out the
Discriminatory Policy from all State of California agencies and subsections.'.-.. "

8

9
10

11

6.
For such other further and additional relief including not limited,
aside and nullify other orders, judgments, sanctions, etc for which the void orders)
served as a basis for on-going actions against Abrams-MacNaughton. .

12
13

a

14

Ilf
|ll

15

il“

16

pi""’'

17

Is

2

7. That Abrams-MacNaughton is entitled to attorneys fees and costs under
42 U.S.C. § 1988(b)) as may be allowed by statute or constitution.
Dated: Wednesday, December 19,2018

By

18

'

Plaintiff in Pro Pei-

(sRickard ^00 AJmtm
RlclSdXee Abrams
Electronically signed

19
20

.

«*

■

21
22
23
’ -u. . - ,

24

j;-

25
26
27
28

Civil Rights Complaint Injunction

Page 15 of 15

RLA 000025

Proof of Service Bv US Mail and Email
V

STATE OF CALIFORNIA
COUNTY OF LOS ANGELES
I am reside in the County of Los Angeles, State of California and I am over the age
of eighteen (IB) years and I am not a party to tills within action. My address is 7500
Laurel Canyon Boulevard, #218. North Hollywood, California 91605
On December 19, 2018,1 served the following documents as follows:
1. FIRST AMENDED COMPLAINT FOR CIVIL RIGHTS VIOLATIONS UNDER
42 U.S.C. § 1983, and INJUNCTIVE RELIEF, ATTORNEY FEES & COSTS
on all interested parties by placing a true and correct copy in US mail with postage
fully prepare thereon and by email:
Jose A. Zelidon-Zepeda, Esq. Email: Jose.ZeiidonZepeda.@,doi.ca.gov
Deputy Attorney General
455 Golden Gate Avenue, Suite 11000,
San Francisco, CA 94102-7004

&V

I declare under penalty of perjury of the laws of the State of California that
the foregoing is true and correct. Executed at Los Angeles, California Wednesday,
December 19,2018
•!
Michael Nlcastro

Li

RLA 000026

Gmail - Activity in Case 2:18-cv-06687-PSG-K$ Richard Lee Abra...

hUps://mail.‘>ooe1lc.corn/maii/u/0?ik-8bdd0b004S&view"pt&senrch...

Mi Gmail

Richard SVIacNaughton <abramsrl@gmail.com>

Activity in Case 2:18“CV-D6687-PSG-KS Richard Lee Abrams v. Edmund G
Brown Jr, et ai Amended Complaint/Petition
1 message
cacd_ecfmail@cacd.uscourts.gov <c3cd_ecfmail@cacd.uscourts.gov>

Wed, Dec 19, 2018 at 9:59
PM

To: ecfnef@cacd.uscourts.gov
This Is an automatic e-mat! message generated by the CM/ECF system. Please DO NOT RESPOND to this
'
e-mail because the mail box Is unattended.
‘“NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys '
of record and parties in a case (including pro se litigants) to receive one free electronic copy of all
documents filed electronically, if receipt is required by law or directed by the filer. PACER access fees;
apply to all other users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30 page limit do not apply,
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OP CALIFORNIA

Notice of Electronic Filing
The following transaction was entered by Abrams, Richard on 12/19/2018 at 9:59 PM PST and filed on
12/19/2018
Richard Lee Abrams v. Edmund G Brown Jr. et a!
Case Name:
2:18-cv-0868?-PSG-KS
Case Number:
Richard Lee Abrams
Filer:

Document Number: 33
Docket Text

first AMENDED COMPLAINT against defendant Edmund G, Brown, Jr amending
Complaint (Attorney Civil Case Opening), [1], Amended Compiaint/PetitionfSOi, filed
by Plaintiff Richard Lee AbramsiAbrams, Richard):
2:18-CV-06687-PSG-KS Notice has been electronically mailed to:
Jose A Zelidon-Zepeda &nbsp &nbsp iose.2elidonzepeda@dQj.ca.gov, maria.otanes@doj.ca.gov,
MEI.THAt@doj.ca.gov
'v

Richard L Abrams &nbsp &nbsp abramsrl@gmail.com
2:18-cv-06637-PSG-KS Notice has been delivered by First Class U. S. Mail or fey other means
BY THE FILER to :
The following document(s) are associated with this transaction:
Document desGription:Main Document
Original fitename:C:\fakepath\Abrams v Brown wo etc w PoS.pdf

Electronic document Stamp:
{STAMP cacdStamp_ID=1020290914 [Osteal2/19/2018] (FileNumber=268112030] [b4b4d65b368f9820a29966e06a0a198e71870a898416bB4e0c2a1876801029b240

i of 2

RLA OOQOSiS, 10:05 PM

:

*

Gmail -f Activity in Case 2:18-cv-06687-PSG-KS Richard Lee Abra

https://mail.google.coni/mail/u/0?ik=8bdd0b0048&view=pti&search...

s 3ceac5dda819f4f5c9Qdf52ba42e448c46723c2002a020f3ab6B965552993e]]
t-' '■

S- ■

r

t

*

1 of %

RLAQOOOaU,,> 10:05 PM

Court of Appeal, Second Appellate District, Division Five - No. B264397
S22763C

IN THE SUPREME COURT OF CALIFORNIA
Eh Banc
*

HOLLYWOODIANS ENCOURAGING LOGICAL PLANNING, Petitioner,
V.

SUPERIOR COURT OF LOS ANGELES COUNTY, Respondent,
*

CITY OF LOS ANGELES, Real Party in Interest.
The petition for review is denied.

SUPREME COURT

FILED

AUG 1 2 2015
Prank A. McGuire Clerk

Deputy
i

o

CANTiL-SAKAUYE
ChiefJustice

RLA 000029

STATE BAR COURT OF CALIFORNIA

FOR CLERK'S USE ONLY:

6/25/2020

HEARING DEPARTMENT

{845 S. Figueroa St, Los Angeles, CA 90017
In the Matter of:
RICHARD SCOTT MACNAUGHTON
(AKA RICHARD LEE ABRAMS)

Case No(s):

16-0-13106

MINUTE ORDER

State Bar No. 77258.

ORDERS:
13 Motion of |3 Deputy Trial Counsel; Q Resp,/App!./Petit.; Q Court for: STATE BAR’S MOTION IN
LIMINE TO PRECLUDE ADMISSION OF ANY EVIDENCE OFFERED BY RESPONDENT
CHALLENGING THE VALIDITY OF COURT ORDERS AT TRIAL: MEMORANDUM OF POINTS AND
AUTHORITIES: DECLARATION OF SU.HTH DIVAKARAN.
□ No opposition |3 Granted 0 Denied
fl- Matter 0 off calendar due to_____ _
0 continued to
at
O Trial continued to
■_________
□ Briefs due: □ Deputy Trial Counsel
r*. fl Respondent
0 Parties waive service of order.

0 Other

mS SO ORDERED.
Dated: June 25,2020

y

inim'.'ii orl(20I90S13)

YVETTE D, ROLAND
Judge of the State Bar Court

RLA 000030

, t

CERTIFICATE OF ELECTRONIC SERVICE
[Rules Proc. of Stale Bar, interim rule 5.26.1; Code Civ. Proc., § 1013b, subds. (a)-(b)]
I. the undersigned, certify that I am a Court Specialist of the State Bar Court of California. I am
over the age of eighteen and not a party to the within proceeding. Pursuant to standard court
practice, on June 25, 2020,1 electronically served a true copy of the following document(s):
MINUTE ORDER
by electronic transmission on that date to the following:

•’'V*

RICHARD S. MACNAUGHTON
MacNaughtonEsq@Gmail .com
CHRISTINA R. MITCHELL
christina.mitchel l@.calbar.ca. gov
I hereby certify that the foregoing is true and correct:

Date: June 25,2020
Elizabeth Alvarez
Court Specialist
State Bar Court of California
845 S. Figueroa Street
Los Angeles, CA 90017
elizabeth.alvarez@calbar.ca.gov

RLA 000031

Proof of Service By US Mail and Email
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES

I am reside in the County of Los Angeles, State of California and I am over the age
of eighteen (18) years and I am not a party to this within action. My address is 7500
Laurel Canyon Boulevard, #218, North Hollywood, California 91605
On September 16, 2020 I served the following documents as follows:
1 PETITION FOR WRIT OF CERTIORARI and
2. APPENDIX TO PETITION FOR WRIT OF CERTIORARI
on all interested parties by email and US mail of paper copies on Jose A. ZelidonZepeda, Deputy Attorney General, 455 Golden Gate Avenue, Suite 11000, San
Francisco, CA94102-7004 and email address to Jose.ZelidonZepeda@doj.ca.gov

I declare under penalty of perjury of the laws of the State of California that
the foregoing is true and correct. Executed at Los Angeles, California, Wednesday,
September 16, 2020

Michael Nicastro
Michael Nicastro
electronically signed

